ES, IG-98-028, Audit of Transportation Costs for Non-NASA Payloads Flown in the Spacehab Module
AUDIT OF TRANSPORTATION COSTS
FOR NON-NASA PAYLOADS FLOWN IN THE
SPACEHAB MODULE
IG-98-028
Executive Summary
Introduction
On December 18, 1997, NASA awarded the Research and Logistics Mission
Support (ReALMS) Contract, NAS9-97199 to SPACEHAB, Inc., for $42.86
million.  The contract covers lease of SPACEHAB's pressurized modules to
be flown in Space Shuttle missions and provides associated integration and
operation services for NASA payloads.  NASA agreed to allow non-NASA
customers secured by SPACEHAB to share payload capacity on Space Shuttle
missions covered by the contract.  The NASA Office of Inspector General
received an allegation that the Agency might not receive consideration
(1) from SPACEHAB for Shuttle transportation
costs associated with the non-NASA payloads.
Objective
The objective of the  audit was to determine whether the Agency sought and
received appropriate consideration from the contractor for Shuttle
transportation costs allocable to non-NASA payloads.
Appendix A provides details on the scope and methodology used for the audit.
Audit Results
NASA management initiated and subsequently withdrew a waiver of
consideration and sought consideration through a reduced price for the
ReALMS contract.  However, because there is no clear guidance on how to
determine the appropriate amount of consideration, NASA has no assurance
that it received sufficient consideration.  Using the methodology applied
to previous contracts, we calculated that the transportation costs should
have been $27.32 million, $19.12 million more than NASA received.  Moreover,
without appropriate guidance, NASA has no assurance that, in the future, it
will receive adequate consideration.
Recommendation
The Associate Administrator for Space Flight should  develop guidance for
calculating transportation fees (consideration) for commercial payloads
flown on the SPACEHAB module.
Management's Response
Management concurred with the recommendation and is developing a Plan for Commercialization of the International Space Station; SPACEHAB has indicated a desire to participate.  The planned actions are a positive step toward satisfying the intent of the recommendation.  However, we request additional comments to clarify how the planned actions will specifically address the recommendation.
FOOTNOTE
1.  Consideration can mean a reduced contract price, reimbursement, or other compensation.